No. 20-132

In the Supreme Court of the United States
THE MOODSTERS COMPANY,
PETITIONER,
v.
THE WALT DISNEY COMPANY; DISNEY ENTERPRISES, INC.; DISNEY CONSUMER
PRODUCTS AND INTERACTIVE MEDIA INC.; DISNEY INTERACTIVE STUDIOS, INC.;
DISNEY SHOPPING, INC.; PIXAR,

RESPONDENTS.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document entitled
BRIEF OF SOUTHWESTERN LAW STUDENT SUNA IZGI, AND PROFESSORS
ORLY RAVID, ROBERT C. LIND AND MICHAEL M. EPSTEIN, IN
ASSOCIATION WITH THE AMICUS PROJECT AT SOUTHWESTERN LAW
SCHOOL, AS AMICI CURIAE IN SUPPORT OF THE PETITIONER contains 5,730
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 4th Day of September, 2020.
s/ Michael M. Epstein
Counsel of Record
Amicus Project at Southwestern Law School
3050 Wilshire Blvd
Los Angeles, CA 90010
213-738-6774
amicusproject@swlaw.edu

